<html>
<title> - U.S. DEPARTMENT OF HOMELAND SECURITY: SECOND STAGE REVIEW</title>
<body><pre>[Senate Hearing 109-359]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-359
 
       U.S. DEPARTMENT OF HOMELAND SECURITY: SECOND STAGE REVIEW

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                             JULY 14, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

23-159                   WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001.





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Kathleen L. Kraninger, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Holly A. Idelson, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Voinovich............................................     4
    Senator Akaka................................................     5
    Senator Lautenberg...........................................     5
    Senator Domenici.............................................     6
    Senator Pryor................................................     8
    Senator Coburn...............................................    20
    Senator Coleman..............................................    23
    Senator Dayton...............................................    29
    Senator Carper...............................................    32

                                WITNESS
                        Thursday, July 14, 2005

Hon. Michael Chertoff, Secretary, U.S. Department of Homeland 
  Security:
    Testimony....................................................     8
    Prepared statement...........................................    39
    Questions and responses for the Record.......................    55

                                Appendix

Memorandum from Shawn Reese, Analyst in American National 
  Government, Government and Finance Division, Congressional 
  Research Service, sent to Honorable Susan Collins, dated July 
  12, 2005.......................................................    72
Letter dated July 14, 2005, sent to Honorable Frank Lautenberg 
  from Daniel P. Mulhollan, Director, Congressional Research 
  Service........................................................    75
Memorandum from Shawn Reese, Analyst in American National 
  Government, Government and Finance Division, Congressional 
  Research Service, sent to Honorable Frank Lautenberg, dated 
  July 8, 2005...................................................    76


       U.S. DEPARTMENT OF HOMELAND SECURITY: SECOND STAGE REVIEW

                              ----------                              


                        THURSDAY, JULY 14, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:33 p.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Voinovich, Coleman, 
Coburn, Domenici, Warner, Levin, Akaka, Carper, Dayton, 
Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good afternoon. This afternoon the Committee will examine 
the results and recommendations of the Second Stage Review of 
the Department of Homeland Security conducted by Secretary 
Chertoff. I applaud the Secretary and his team for a thorough 
analysis of the Department's organization, strengths, and 
weaknesses.
    We meet in the aftermath of a grim reminder of why this 
review is so significant. The terrorist attacks last week in 
London remind us that the enemy we face has an unlimited 
capacity for cruelty. They remind us that terrorists can be 
blocked again and again, yet they need carry out only one 
successful plot to cause death and destruction. And the attacks 
remind us that we must strive for success every single time.
    I know we all extend our deepest condolences to the people 
of Great Britain. I also know that these attacks only 
strengthen their resolve and our commitment to stand with them 
against those who would destroy our way of life.
    The Department of Homeland Security was created to help us 
respond to the enormous challenges we face. Our Nation was 
attacked by a new enemy in a new way, and we responded with a 
massive and innovative effort to better protect our Nation 
against the threats of the 21st Century.
    This Committee, which crafted the legislation creating the 
Department of Homeland Security and which has confirmed two 
generations of its top officials, works closely with the 
Department to continually improve our Nation's homeland 
security posture. We have always viewed our role not as critics 
of the Department but as partners in a common cause. Whether 
the issue is the security of our cargo ports or our chemical 
facilities, equipping and training of our first responders, or 
improving counterterrorism intelligence and information 
sharing, we have worked with the Department not just to 
identify problems, but also to forge solutions.
    This Second Stage Review comes, appropriately enough, as 
the second generation of Department leaders takes over from the 
commendable start of its predecessors. As Secretary Chertoff 
said in previous testimony shortly after he announced this 
review, the Department ``was created to do more than simply 
erect a large tent under which a lot of different organizations 
would be collected.''
    The Secretary's announcement yesterday outlined a strong 
direction for the Department, one of better integration, risk-
based planning, and dynamism. The proposals put forth in his 
review do not construct additional partitions within that big 
tent but, rather, seek to remove those that are 
counterproductive to the comprehensive approach that homeland 
security requires. It is about accomplishing goals and 
objectives, not about preserving the status quo.
    Within this overall theme, of course, there are a great 
many specifics that we will discuss today and over the coming 
months, particularly where implementing legislation is 
required. We will also address several organizational 
proposals, such as the merger of Infrastructure Protection, 
Domestic Preparedness, and other entities into a new 
Directorate of Preparedness, and the establishment of a much 
needed Policy and Planning Office to develop coherent 
strategies and comprehensive policy guidance at the very 
highest levels of the Department.
    The Secretary has also proposed the creation of a Chief 
Intelligence Officer responsible for both internal and external 
coordination. I am particularly interested in this proposal, as 
just 3 months ago Senator Lieberman and I urged the Secretary 
to assess the Information Analysis and Infrastructure 
Protection Directorate and its relationship with the 
intelligence community, State, local, and tribal governments, 
and the private sector.
    As with so many aspects of homeland security, the 
collection, analysis, and dissemination of critical 
intelligence require not just a Federal strategy but a national 
strategy that recognizes the contributions of intelligence not 
only across the Federal Government but from our State and local 
partners as well. I believe that strengthening the Department's 
intelligence efforts and giving its chief a direct line of 
communication with the Secretary would help begin to 
resuscitate what appears to be a rather moribund and 
underutilized part of the Department.
    I hope that the efforts of the Second Stage Review lead to 
further functional integration. As Deputy Secretary Michael 
Jackson and I discussed during his nomination process, the 
Department-wide management functions, particularly in 
procurement, information systems, and finance, must be 
integrated with and support the Department's missions. And I 
know that the Secretary's reorganization plan recognizes and 
addresses those critical management issues.
    Secretary Chertoff's predecessor, Tom Ridge, often 
described the creation of the Department of Homeland Security 
as the greatest IPO in history, a merger of unprecedented size 
and complexity. The organizational challenges are extensive, 
and DHS will need to continue to evolve. I commend the 
Secretary for his leadership on this crucial matter. I look 
forward to hearing from him today in more detail about his 
findings and his specific plans and recommendations.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Madam Chairman. Secretary 
Chertoff, welcome back to the Committee. Thank you for 
appearing today to discuss the top-to-bottom departmental 
review you commissioned when you were confirmed as Secretary 5 
months ago.
    The Department has made our country safer than it was 
before, but I think we all would agree that it is not yet as 
safe as we need it to be, and the Department was ready, it 
seems to me, for a second chapter step back to look at where we 
have been and see how we can carry out our responsibilities 
better.
    It appears to me that you have done a thorough, honest, 
constructive job here that will help you, as the head of the 
Department with primary responsibility for the protection of 
the American people at home, to not only fulfill your 
responsibility but to fully take advantage of the opportunity 
you have to guide the Department into the critical second stage 
of its post-September 11 development.
    I want you to know that I was encouraged by several parts 
of your recommendations as I took a first look at them, and I 
know we will discuss them in more detail today. First was the 
emphasis on strategic policy planning. Highlighted in oversight 
hearings of the Department that the Committee held earlier in 
the year, the establishment of an Under Secretary for Policy is 
very important and hopefully will lead to a clear setting of 
priorities, which has not been as much the case as we would 
have wanted up until now.
    Intelligence is a critical function of the Department. We 
focused on that in the legislation creating the Department, and 
I would say although a number of significant improvements have 
been made across the intelligence community, particularly when 
we passed the Intelligence Reform and Terrorism Prevention Act 
last year, I do not think that the Department's Office of 
Information Analysis has to date received the support that it 
needs. Therefore, I take the separation out of that office and 
the creation of a Chief Intelligence Officer as a step in the 
right direction. I certainly hope it is, and I look forward to 
discussing with you your ideas for supporting the intelligence 
activities of the Department and improving the coordination 
among the various intelligence agencies within DHS and the 
intelligence support that is received.
    Also, the proposal for a Chief Medical Officer makes a lot 
of sense to me. It is something that I have been interested in 
myself. In legislation I proposed earlier this year, BioShield 
II, we called for the creation of an Assistant Secretary for 
Medical Readiness and Response, and it seems to me--I hope--
that the Chief Medical Officer that you are talking about 
creating will fulfill that role. And this is to coordinate and 
galvanize preparedness for one of the nightmares of the age of 
terrorism, and that is a biological terrorist attack.
    I do have questions about some of the other reorganization 
proposals. I want to hear more about the rationale for 
separating FEMA from the Department's preparedness programs and 
for eliminating the Directorate of Border and Transportation 
Security. And I must say just generally, as I heard your 
remarks yesterday, I was concerned about the extent to which 
you feel limited by the limitation of financial resources, and 
I will bring to you the experience that I have had as a member 
of the Senate Armed Services Committee. We always say to the 
people at the Pentagon, ``Don't let your decisions be budget-
driven. We are talking about the security of the United States 
of America.'' And I would say the same to you as you go 
forward.
    In that regard, as you may know, there has been a lot of 
controversy today about some statements you made yesterday, and 
I want to ask you in your opening statement if you could 
respond to them. And this is on questions that you were asked 
yesterday about mass transit protection, and you were quoted in 
an Associated Press story this morning as saying that--
basically you are contrasting aviation security with mass 
transit, and you say, ``By contrast, mass transit systems are 
largely owned and operated by State and local authorities.'' 
And then you seem to be saying that the Federal Government must 
focus on attacks that could produce the most casualties. The 
quote is, ``The truth of the matter is a fully loaded airplane 
with jet fuel, a commercial airliner, has the capacity to kill 
3,000 people. A bomb in a subway car may kill 30 people. When 
you start to think about your priorities, you are going to 
think about making sure you don't have a catastrophic thing 
first.'' I am reading from the AP story this morning. ``Asked 
if this meant communities should be ready to provide the bulk 
of the protection for local transit systems, Chertoff said, 
`Yep.' ''
    This has alarmed a lot of us who have mass transit going 
through our States. A lot of people who ride mass transit are 
already worried about security because they are not closed 
systems. And, inevitably, I think this has to be, at least in 
part, a national responsibility.
    So I use that as an example to just say that in all the 
structural changes you are making, which generally to me seem 
to be heading in the right direction, we also need you to not 
let your decisions, which are life-and-death decisions, be 
budget-driven.
    I thank the Chair.
    Chairman Collins. Thank you, Senator.
    We are expecting to begin roll call votes, a series of 
them, shortly after 3 o'clock. So I would ask my colleagues to 
keep their opening remarks extremely short, and if you could 
even bring yourself to submit them for the record, that would 
be even better.
    Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman. I applaud 
your leadership and the expediency for calling this hearing one 
day after Secretary Chertoff released the Department of 
Homeland Security Second Stage Management Review. I am anxious 
to hear what he has to say today.
    I ask that the rest of my statement be inserted in the 
record so we can move on to hear the Secretary.
    Chairman Collins. Thank you so much.
    [The prepared statement of Senator Voinovich follows:]
                 OPENING STATEMENT OF SENATOR VOINOVICH
    Thank you, Madam Chairman. I applaud your leadership and expediency 
for calling this hearing one day after Secretary Chertoff released the 
Department of Homeland Security's second stage management review.
    Secretary Chertoff, you have one of the most challenging jobs in 
the Federal Government. Therefore, I would like to thank you again for 
your service to our Nation and for your willingness to relinquish a 
lifetime appointment to the third circuit court of appeals in order to 
serve as Secretary of the Department.
    Mr. Secretary, you face great challenges. In addition to securing 
our homeland from terrorists, the Department is forging a unified 
corporate identity for 180,000 employees from 22 disparate Federal 
agencies. This monumental effort is to important that the Government 
Accountability Office included implementing and transforming the 
Department of Homeland Security on their high-risk list of programs 
especially susceptible to mismanagement.
    As Chairman of the Oversight of Government Management Subcommittee, 
I am interested in ensuring that the Department continues to improve 
its operations. In fact, Mr. Secretary, just this morning, I held a 
hearing on the security of the National Capital Region, an area I 
encourage you to closely examine. In addition, I have been monitoring 
the Department's implementation of the human resource management system 
known as MaxHR.
    Given the Department's significant management challenges, I believe 
that we should be conducting more oversight and directing more 
resources to management issues. This includes better coordination 
between DHS's authorizing and appropriating committees in Congress, 
which in turn will lead to better oversight of the Department.
    In closing, I commend Secretary Chertoff for initiating this 
comprehensive review of the Department's operations. I look forward to 
his testimony and stand ready to help him implement his 
recommendations.
    Thank you, Madam Chairman.

    Chairman Collins. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I want 
to add my welcome to the Secretary and say thank you for being 
here. I will not have an opening statement, but let me say that 
we have just received the Secretary's proposal on 
reorganization of the Department of Homeland Security, and I 
just want to say that at first glance some of the Secretary's 
recommendations look good. But I would like to take the time to 
try to understand how they impact our security.
    So I look forward to the Secretary's statement and also 
possibly future hearings by this Committee as we explore how to 
best proceed. Thank you very much.
    Chairman Collins. Thank you very much, Senator. Senator 
Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. I do have a statement, Madam Chairman, 
and I will try to make it brief. But this is a rare opportunity 
for us to meet with the Secretary and to explain to the public 
how we see things to make certain that we are not rushing past 
a chance to learn more about what is taking place at Homeland 
Security. And I particularly want to thank Secretary Chertoff 
for being here. Yesterday he unveiled proposals to make the 
Department of Homeland Security more effective, and we respect 
that greatly.
    But while Secretary Chertoff was announcing these steps 
yesterday, the Senate acted contradictorily to his goal of 
protecting our homeland from terrorist attack. The Senate voted 
to reduce the amount of homeland security grant money that will 
go out based on highest risk. And in the real world, that means 
that we are thwarting Secretary Chertoff's desire to protect 
our country to the best of his ability. And I will only 
continue to say loudly and clearly that the only basis for 
allocating homeland security resources as the 9/11 Commission 
requested is to distribute to the area of highest risk. If we 
knew of an imminent anthrax attack targeting Detroit, we would 
not send 40 percent of the limited vaccine to California. So 
why should we do that with our national security grants?
    Nearly 1 year ago, DHS put out an Orange Alert on three 
jurisdictions: New York City, Washington, DC, and northern New 
Jersey. People in our area are justifiably worried, but we 
assured them that the government would be doing all it can to 
keep their communities safe. One of those targets was a 
building in Newark, New Jersey. But if this happens again, I am 
not sure what we can tell them. Tell them that the money is in 
Kansas someplace? We have to live up to our responsibility.
    The Administration has been very clear about what they 
want. They want to put the money where the risk is. Last 
summer, the risk was within sight of my New Jersey office. Our 
intelligence services gathered data showing that terrorists 
have studied the Prudential office building. That is how you 
measure risk, analysis and intelligence, not a simple formula.
    Secretary Chertoff wrote a letter to all the Senators 
yesterday in which he says providing enough flexibility to 
distribute over 90 percent of grant funds on the basis of risk, 
so that confirms your view. And there seemed to be a question 
about whether or not figures that CRS developed were accurate 
or not. And I ask unanimous consent that a letter from Daniel 
Mulhollan, the Director of CRS, be included in the record.\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Lautenberg appears in the 
Appendix on page 75.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Lautenberg. Thank you. This is dated July 14. He 
said, ``We have reviewed the calculations that underlay the 
data presented in the memorandum''--to me \2\--``dated July 8 
and have confirmed their accuracy.'' So we are not making any 
mistakes about the mathematics included in this.
---------------------------------------------------------------------------
    \2\ The CRS report dated July 8, 2005, appears in the Appendix on 
page 76.
---------------------------------------------------------------------------
    And I was hoping that the London attacks would finally wake 
up the Senate to this reality. Unfortunately, I was wrong. And 
I look forward to hearing the testimony of our distinguished 
Secretary.
    Thank you.
    Chairman Collins. Senator Domenici.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. I regret that I cannot just say nothing, 
but I will be very brief.
    Chairman Collins. Please proceed.
    Senator Domenici. First, Mr. Secretary, I hope that you 
will have confidence in what you are doing in spite of the 
difficulties of organizing because everybody should know that 
you have either the privilege or are the victim, whichever, of 
having to organize a reorganization that is the largest in 50 
years. And when you consider how big we are, and you have that 
big of a reorganization, it is hard to put it together. And I 
think it will require more than one reorganization effort. So 
keep the faith.
    Second, I was going to ask about the border, but it has 
become so prevalent these last few days on the floor and in 
your commitments that you are going to talk about it. You 
cannot do enough, but the border is organizable, with your 
Commissioner who is in charge, who is excellent--we spoke to 
him at length. If his game plan is your game plan, you ought to 
promote it. It is terrific. It will get us there. It will 
control the border within the next 4 or 5 years without putting 
the United States military on the border.
    Last, a little tiny thing that I think is a big thing, and 
that is: Since September 11 the flow of foreign students to our 
universities has turned from a river to a trickle. There may be 
some around that say, ``Great. What do we need them for?'' But, 
frankly, that is abysmal for America, not only because they 
should be coming here to get educated, but because the best way 
to influence countries, including countries like China, is to 
have 20,000 to 30,000 of their students here going to our great 
universities and then having them go home. And the trickle has 
to be reconverted to a river. We have to turn it back into a 
flow. You have from time to time spoken about your ideas 
regarding students coming to America. If you do not address it 
today, I will seek your position. And if we need legislation, I 
will be glad to pursue it. I think it is very important, subtle 
but dramatic.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Domenici follows:]
                 OPENING STATEMENT OF SENATOR DOMENICI
    Madam Chairman, thank you for holding this hearing to discuss the 
Department of Homeland Security's second stage review. Thank you also, 
Secretary Chertoff, for discussing your departmental review with us.
    Your Department is young, but it is tasked with the difficult job 
of securing our Nation. Your Department also represents the largest 
reorganization of governmental departments in more than 50 years, so I 
understand that there are some areas we can address to improve our 
security. I look forward to working with you throughout the second 
stage review process to determine what our homeland security needs are, 
and how we can best address those needs. There are a few specific areas 
that I am eager to hear about today.
    First, I would like to learn about your thoughts on the 
coordination of the Department's research initiatives, which I hope 
will be a focus as you coordinate DHS activities. I believe DHS must 
collaborate its research and development efforts within the Department 
and with universities and national labs. For example, in my home State 
of New Mexico, the Department of Homeland Security works with Sandia 
and Los Alamos National Laboratories at the National Infrastructure 
Simulation and Analysis Center to understand the consequences of 
disruptions to our Nation's infrastructure. The Department must 
continue to work with worthwhile partners like this.
    Second, I look forward to hearing more about your plan to 
strengthen the border and improve the immigration process. This is an 
issue of critical importance to my State and other States on the 
southern and northern borders. I agree with you that we can provide 
more security by adequately staffing our borders with immigration and 
border experts and investing in new technologies like Unmanned Aerial 
Vehicles.
    I am also anxious to learn more about your efforts to improve 
border infrastructure because 1986 was the last time we launched a 
major effort to upgrade the infrastructure at our land ports of entry. 
That last effort, which occurred almost 15 years before September 11, 
2001, was headed by former Senator DeConcini and myself, and I believe 
the time for further improvements to our border infrastructure is now.
    Similarly, I am eager to hear more about your thoughts on an 
industry-wide temporary worker program and eased restrictions for 
immigrants seeking to study in the United States. Prior to 2001, the 
United States was a preferred place for foreign students to obtain 
post-graduate degrees. Students came to the United States to study, but 
they stayed here to work. Thus, our country was obtaining many of the 
most brilliant minds not only from within our borders, but from across 
the world. Unfortunately, that has changed because of the restrictions 
and limitations put on student visas post-September 11. Now, many of 
the leaders of the next generation choose to attend school in places 
like Great Britain, where they have easier access to universities.
    Lastly, I am interested in your thoughts on our Federal Law 
Enforcement Training Centers. I am pleased to see that FLETC will 
maintain its autonomy and will report directly to Deputy Secretary 
Jackson under your proposed Department reorganization. Additionally, 
because New Mexico is home to the Federal Law Enforcement Training 
Center where our Border Patrol Agents, Federal Air Marshals, Federal 
Flight Deck Officers, and other Federal agents train, I am eager to 
hear about your review of the agency.
    I know that your review has covered many other areas as well, and I 
look forward to discussing each of those topics with you as well, Mr. 
Secretary.
    Thank you, Madam Chairman.

    Chairman Collins. Thank you. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman. I just want to 
thank you, and the Ranking Member, for your leadership. 
Secretary Chertoff, good to have you here in the Committee 
today.
    Thank you.
    Chairman Collins. Thank you very much. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman. I look forward 
to hearing from the distinguished Secretary, so I will pass. 
Thank you.
    Chairman Collins. Thank you. Welcome, Mr. Secretary. You 
may proceed with your statement.

    TESTIMONY OF HON. MICHAEL CHERTOFF,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Chairman Collins and Senator 
Lieberman. I will ask that my full statement be made part of 
the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Chertoff appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Secretary Chertoff. I will just try to briefly cover some 
points and then open myself up to questions.
    First of all, I do want to give you my sincere and deep 
gratitude for the counsel and advice that you, Madam Chairman, 
and Senator Lieberman and the rest of the Committee have given 
me in discussions about this Department over the period of time 
since even before I became the Secretary and up to the present 
time. We have had an opportunity to talk about a number of the 
ideas here, and a number of the ideas, frankly, are plagiarized 
from suggestions and proposals that have been offered by this 
Committee, and I invoke every means of paying tribute to your 
good suggestions. But I think maybe the most eloquent is that 
we have adopted a lot of them in the reorganization as well. So 
we have paid a lot of close attention to what this Committee is 
doing.
    Let me outline briefly, kind of give an overview of what we 
have tried to do here, and then I want to respond a little bit 
to Senator Lieberman's point in his opening statement.
    Neither my speech yesterday nor my testimony today is a 
complete review of everything that we need to do and are doing. 
We have had some previous testimony here about, for example, 
chemical site security. I did not feel the need to repeat that 
again yesterday. We are working very hard on that issue because 
we do recognize that there is a lot of concern about making 
sure that chemical sites do not become weapons in place. But 
some things which I think we had not talked about seemed 
appropriate to talk about yesterday: Preparedness, making sure 
that we have focused on preparedness for our greatest risks, 
and that includes biological, nuclear, chemical, things of that 
sort; transportation, including mass transportation, making 
sure we have better systems that move people and goods into the 
country and around the country, and taking account of the 
nature of the systems themselves, to be able to bring modern 
technology into play, and also to make sure we are being 
interoperable, that when we set up various trusted traveler 
programs and screening programs, we build them in a way so that 
they work together, and so that eventually, instead of having 
four or five separate trusted traveler cards, people can have 
one, and that can do the duty for all the different kinds of 
screening that we need to do.
    This kind of thinking smart not only promotes security, but 
it promotes privacy and it promotes efficiency.
    Borders and immigration, obviously a huge issue. Senator 
Domenici, I can tell you that the discussion that the 
Commissioner had with you reflects the way this Department is 
approaching the border, which is an integrated approach that is 
looking to take and coordinate new technology, infrastructure, 
and people in a way that makes them work together. Also, it 
does something we sometimes don't do in government, which is 
take a strategic look at the whole picture. Because the issue 
of dealing with illegal migration is not just apprehension, but 
it is also, when we apprehend people, do we detain them? If we 
detain them, how quickly can we remove them? And all of these 
pieces work together.
    I can tell you, sometimes we make a mistake when we flood a 
lot of resources to one piece of the system and we do not take 
account of the fact that it is going to bottleneck another 
piece of the system. And what we are doing now is we are going 
to have a program manager who is going to build an entire 
system and make sure that all the pieces are properly scaled so 
that we actually increase efficiency.
    Likewise, too, I am delighted to point out, Senator 
Domenici, in terms of the foreign students, as I announced 
yesterday, Secretary Rice and I are working on an agenda that 
we hope to announce shortly that will expedite and make it 
easier and more welcoming for those who want to come to the 
country to visit and study in a positive way to come here. 
There is no question part of the struggle against terrorism is 
the struggle of ideas, and we want to embed our ideas overseas. 
And that is one of the reasons why we want to be welcoming and 
not forbidding.
    Information sharing is a key element, and the Chief 
Intelligence Officer that we envision is going to have the 
ability and the authority to fuse the intelligence that is 
generated by the over 10 components in our Department that 
currently have some intelligence responsibilities, and to do it 
with a view to having strategic intelligence that fulfills the 
unique mission that I think Congress envisioned for this 
Department, which is not merely playing ``catch the 
terrorist,'' but is talking about how to help our State, local, 
and private partners protect their infrastructure, prepare 
themselves for any eventuality, and prevent acts of terrorism 
on State and local levels.
    Finally, I would be remiss and I would have been remiss had 
I not mentioned organization as a critical part of what we are 
trying to do. That is why I mentioned it yesterday, and that 
means not only procurement policy--and we talked about this. I 
sat down with the Inspector General very soon after I arrived 
and said, ``I want to get your ideas about how to make 
procurement work with efficiency and integrity,'' but also 
having human capital to properly move forward where you have 
MAX HR. One of the things I am trying to do is not only move 
that forward and implement it in a way that is reassuring and 
accessible to the employees of the Department, but also build a 
culture in the Department where people learn that we are 
working as a team. And that involves doing things, for example, 
as encouraging career paths where people can move among 
different components so that they get a sense that we are part 
of a larger Department.
    To do all these things, I have outlined a series of 
organizational changes which I won't go into in detail in my 
opening statement, but which I think will give us the tools to 
make sure when we look at our missions in terms of our policy, 
our intelligence, and our operations, we look with a single 
pair of eyes that operate in synchronicity and that allow us to 
look across the entire Department and drive the agenda and 
accomplish the mission without regard to the individual 
component stovepipes.
    Let me just take a moment to respond to Senator Lieberman's 
observations about mass transit.
    I have obviously been closely involved in our response to 
what happened in London and in dealing with the whole issue of 
how we are preparing ourselves with respect to transportation, 
in general. As I think I said during my confirmation hearings, 
I believe we need to make sure that we are paying as much 
attention to our non-aviation transportation as we pay to our 
aviation transportation. But I also have tried to emphasize 
that these are different systems. They work differently. Their 
ownership is configured differently. And, therefore, although 
they each require the same degree of attention, the particular 
way in which we pay attention may be a little bit different. 
Aviation is, for example, a closed system. People enter and 
depart in a relatively fixed number of points. Once you are on 
the airplane, you are on the airplane. And so our configuration 
in terms of security is one that is guided and molded by the 
existing nature of the system. We don't want to break the 
system.
    We all know we could not import that system into the New 
York subway system. I have ridden the New York subways. I have 
ridden the Washington subways. To have magnetometers would be 
to destroy the system itself. So we have to think about how do 
we make that system work with security and with efficiency?
    And in that regard, one of the things I wanted to be 
careful to emphasize--and perhaps I am not always as careful as 
I want to be--is that we have to look at the whole range of 
threats. Obviously, even a bombing that kills 30 people or 40 
people is a very serious matter. But a biological incident in a 
subway or a chemical incident in a subway which could have the 
capability of killing many, many more people and, in fact, 
rendering the subway unusable for a substantial period of time 
would be a matter of significantly worse consequence.
    It's part of the nature of my job to make sure that as we 
go about doing things in terms of our priorities, we take 
account of the structural differences of the systems we deal 
with, the differences in consequence. I think that is the 
essence of risk management. But I do want to emphasize so there 
is no mistake about it, that as we speak--and frankly, you 
know, before London we were working very hard focusing on the 
rail system, and particularly upon those vulnerabilities that 
people on this Committee have talked about, including concerns 
about the movement of hazardous chemicals on our rail system, 
concerns about the possibility, as I say, of chemicals or 
biological things on the system, and also, obviously, working 
on new technologies to detect explosives and to allow us to 
give greater safety to those who use the transportation system.
    So that is my kind of overview, and I hope I have clarified 
any misconceptions, and I look forward to answering questions.
    Chairman Collins. Thank you, Mr. Secretary.
    During the last 3 years, the Department has invested a 
great deal of resources, time, and attention in improving our 
Nation's preparedness and ability to respond to a terrorist 
attack, and that is obviously a very important part of the 
mission of the Department. Less attention, however, has been 
given to the intelligence role of the Department. As Senator 
Lieberman, who is the chief author of the Department's 
legislation, can attest, Congress intended the Department of 
Homeland Security to play the role of integrating a lot of the 
terrorism-related information reporting and analysis. And that 
really has not happened. The Department's role has been minimal 
in the intelligence community, and yet its component agencies, 
like the Coast Guard and the Border Patrol, critically need 
access to information and intelligence reporting.
    I had always thought, when the Terrorist Threat Integration 
Center was created, that it would be placed within the 
Department. But as I said, the Department has really never 
fulfilled its role. Under your new plan, what do you see as the 
role of the Department within the broader intelligence 
community at the Federal level and in working with our partners 
at the State and local level? Relatedly, what role does the new 
Chief Intelligence Officer play within the Department?
    Secretary Chertoff. Like you, Chairman Collins, I am 
passionate about intelligence as the key to doing our job 
properly. The best way to avoid a problem is to detect it in 
advance.
    We have within the Department over 10 individual components 
that do intelligence. A lot of it is tactical intelligence. For 
example, Customs and Border Protection needs to know about new 
types of phony passports, and that is appropriately done at the 
level of Customs and Border Protection.
    But there is a strategic component to that as well. As 
people come across the border, as they are intercepted and we 
question them, sometimes they are turned away. Sometimes we 
find phony documents. If you stand back and connect all those 
dots, you sometimes get very interesting pictures that are not 
necessarily known to those who are within the individual 
offices or even within the individual component.
    We have done some things, for example, on an ad hoc basis 
where we have pulled Coast Guard intelligence together with 
Customs and Border Protection and ICE, and we have actually 
been able to put a team together to assemble a much wider 
picture of a particular intelligence threat than we could have 
done in each component on its own. And then we have taken that 
to the wider community and sat with the FBI and with the DNI 
and the NCTC, and we have plugged that into what they are doing 
in a coordinated way.
    So we have begun this process even before the 
organization--by doing it manually in the sense that I will 
call up the head of the components and bring these people and 
let's sit down, let's fuse this together. The lesson there is 
that we need to do it institutionally, not just when the 
Secretary intervenes personally. And that is what we are really 
trying to build here. The Chief Intelligence Officer will have 
the authority and the obligation to pull intelligence from all 
the components inside and make sure it is fused and integrated 
from a Department perspective.
    The second piece is we need to make sure that we then 
become better participants in the intelligence community as a 
whole. By having more to contribute, first of all, we will 
have, frankly, a more vigorous place at the table. But I have 
also made it clear and I am going to continue to make it clear 
that our intelligence officer, our Chief Intelligence Officer 
has a unique role to play in the community. We are not simply 
chasing terrorists. We are looking at this information trying 
to understand how does it affect our border operations, how 
does it affect our Coast Guard operations, because we do adjust 
these based on the intelligence. And then how do we work with 
our State and local partners and our private sector partners in 
passing this on and helping them make use of it. So that is a 
big part of what that job is going to be.
    Let me conclude by saying that one of the things I 
announced yesterday was that I had spoken to a number of 
governors and homeland security advisers in the States about 
their desire to have fusion centers. We are inviting them all 
to come meet with me and the top leadership to see how we can 
network those fusion centers, which are another form of 
intelligence gathering and distribution mechanisms in order to 
get them all linked together.
    So that is an overly long-winded response to your question.
    Chairman Collins. Mr. Secretary, I want to turn very 
quickly to a recommendation that you did not embrace. As you 
know, we have heard testimony before this Committee from the 
Rand Corporation and others recommending a merger of CBP and 
ICE, and I have asked the Department's Inspector General to 
analyze that and report back to us.
    It appears to me that you are going in exactly the opposite 
direction by moving CBP and ICE out from under a common 
Directorate, the Border and Transportation Security (BTS) 
directorate, and having them report to you directly. If 
anything, you are further separating the entities. We know that 
a lot of law enforcement officials believe that it would be 
better instead to bring them together.
    Could you give us your thoughts on why you decided to 
recommend abolishing BTS, separating them further rather than 
merging them?
    Secretary Chertoff. I took this question very seriously, 
and I actually met with the Inspector General to get a sense at 
least of what he was finding. I also spent time talking to 
people in the field about it. And, I also have the ability to 
rely on my own experience doing law enforcement work and as a 
prosecutor dealing with different agencies.
    It was a difficult question. I understand the arguments in 
favor of it. We begin with the fact that a merger like that 
would in itself impose substantial costs. So I asked myself, 
What are the problems we are trying to cure here and is there a 
way to cure them in a less drastic approach?
    I think one problem is a financial problem that had to do 
with the original merger, and we are, I think, close to getting 
that cured with additional funding and additional management 
controls in ICE. I don't think I would recommend merging the 
two organizations to correct a management problem in one. I 
think we just ought to correct the management problem.
    The second question is, How do you get them to work 
together operationally? And I think there has been a problem 
there. Some of it may be cultural, some of it may be a legacy 
of what was left over from the original merger. I asked myself 
the question, Is this a case where we have two agencies that 
are chasing the same type of activity? Usually when you find 
that, there is a good argument for combining them. But here, 
actually, although there is some overlap, there is actually a 
fairly distinct center of gravity to each organization.
    FAMS, for example, which we have indicated we are going to 
move back to TSA, really has nothing to do with these two 
organizations in terms of their main missions. But much of what 
ICE does in detention and removal and investigation is 
functionally different to a large degree from Customs and 
Border Protection.
    So I guess I concluded that merging them would simply--they 
would still have to have different functions. They would simply 
have deputy assistant secretaries instead of assistant 
secretaries. What seemed to be important was to get them to 
operationally work together, but to do it with the other 
components as well, with Coast Guard, for example, and even 
with Infrastructure Protection. And that is where having an 
operations and a planning and policy shop Department-wide, I 
think, supplies the answer.
    When we sat down to talk about a border security strategy, 
what we needed to do was to build a plan that was 
comprehensive, that took us from the beginning of the process 
through to the end, and that spanned, among other things, the 
role of CBP, ICE, and the Coast Guard. Putting together a tool 
that allows us to do that, which is what we have recommended, I 
think will address the problems that have been identified.
    Now, as I say, I spent time thinking about it. I understand 
reasonable minds can disagree. I think that at this point I am 
confident that our solution has a very good prospect of 
succeeding, and I look forward to talking about it more with 
you in the future.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Secretary Chertoff, let me come back to 
the question I asked you about the comments you made yesterday. 
First let me clarify because I have been asked, and by 
coincidence, many of us were in a classified briefing with you 
yesterday. I would never quote from that. I want to make clear 
this is a quote from apparently a meeting you had yesterday 
with the Associated Press reporters and editors. I want to read 
it to you because on the face of the story, if you have not 
seen it, it is very unsettling coming a week after the London 
attacks. It must be particularly unsettling to the 14 million 
Americans who ride rail and transit.
    We know, as you said in your initial response, in your 
opening statement, that these are not closed systems, so they 
are harder to protect than aviation, for instance. But there 
seems to be a suggestion here that there is not a Federal 
responsibility to protect local and State rail and transit 
systems. And to me that goes to the heart of what the 
Department is about. The Department is dealing with a national 
threat of terrorism and does not base its protective actions on 
whether a Federal Government regulation dominates in one area 
or another. I will just read it to you briefly. This is an AP 
story today, Lara Jakes Jordan, Associated Press writer. `` 
`The Federal Government can provide only limited help to States 
and local governments to protect transit systems from terror 
attacks, and local officials must be largely responsible for 
the cost of improved subway, train, and bus security,' Homeland 
Security Secretary Michael Chertoff said Thursday, one week 
after the bombings in London's subway and bus system. Chertoff 
said the U.S. Government is bound to financially support the 
security of the Nation's commercial airlines in part because 
the aviation system is almost exclusively a Federal 
responsibility. By contrast, he said, U.S. mass transit systems 
are largely owned and operated by State and local authorities. 
He also said the Federal Government must focus on attacks that 
could produce the most casualties. `The truth of the matter is 
a fully loaded airplane with jet fuel, a commercial airliner, 
has the capacity to kill 3,000 people,' Chertoff told AP 
reporters and editors. `A bomb in a subway car may kill 30 
people. When you start to think about your priorities, you are 
going to think about making sure you don't have a catastrophic 
thing first.' Asked if this meant communities should be ready 
to provide the bulk of the protection for local transit 
systems, Chertoff said, `Yep.' ''
    So I want to give you a chance to respond to that because I 
think--I repeat, I gather you have already been challenged to 
apologize by one of my colleagues on the floor of the Senate. 
This will create an uproar, and you happen to be here, so I 
think it is important for you to clarify how you see the 
Department's responsibility with regard to the safety of rail 
and transit systems in our country.
    Secretary Chertoff. We have an equal responsibility to 
protect Americans across the board in every respect. The way in 
which we protect differs depending on the nature of what we are 
talking about. And I think, the point I was trying to make--
and, again, perhaps not with perfect precision--was we have to 
deal with the differences in the system as we talk about the 
way in which we interact with the system.
    My point was the aviation system is essentially a closed 
system. We can govern people who enter and who have access to 
it. We can do it in a way that, because of the timing of 
aviation, allows us to put up portals and things of that sort. 
And, frankly, there is almost nobody positioned to put the 
boots on the ground, so to speak, other than what we do. I 
mean, there are not large numbers of local authorities that 
will provide screeners. So in terms of a manpower-intensive 
approach to screening in the aviation area, we do have a large 
Federal presence.
    As someone who has ridden subways and trains all my life, 
most of the boots on the ground are local. They are local 
police and they are local transit police and local transit 
authorities. So a lot of the actual folks who do the work and a 
lot of the kind of manual day-to-day stuff is held by local 
governments and some by private, for example, bus lines and 
things of that sort.
    So our responsibility is the same, but our way of 
interacting is going to be different. The help that we can give 
transit authorities, for example, may come in a different form 
than what we do with respect to airlines. No one is suggesting, 
I think, that we take Federal police and put them on subways. 
What we want is the ability to use our technology to do the 
kinds of things we are now doing, for example, here in 
Washington, and in other places like Boston and New York, to 
have better detection equipment, use of synchronized video 
cameras with, for example, chemical and biological sensors so 
we can get better efficiency and more efficiency with respect 
to the way in which we protect our subway and transit 
passengers.
    So it is not a question of not having responsibility across 
the board. It is a recognition of the fact that different 
sectors of our economy are configured differently, and we have 
to be partners with everybody, and we have to recognize those 
differences in the way we apply our partnership.
    Senator Lieberman. OK. I wanted to give you the opportunity 
to clarify, and I think you have. Let me state what you know, 
which is, there is an enormous Federal investment, which we are 
debating right now, in the mass transit systems themselves, 
leave aside the security question. We are debating that in the 
transportation legislation, so there is a big Federal 
involvement there. But I agree, we are not talking in the case 
of mass rail and transit systems of Federal police, for 
instance. They are going to require Federal financial support 
and technological support. And I just want to give you the 
opportunity to clarify that you believe that there is a Federal 
responsibility, specifically through the Department of Homeland 
Security, in assisting rail and transit systems around America 
and protecting the security of the 14 million people who ride 
them every day.
    Secretary Chertoff. Absolutely, and we do that, and we will 
continue to do that. My point is that we will do it in 
partnership with those systems. We are not going to come in and 
take the system over.
    Senator Lieberman. Understood.
    Secretary Chertoff. We are going to do it with them and, in 
fact, that is what we have been doing.
    Senator Lieberman. Thank you.
    Chairman Collins. Senator Voinovich.
    Senator Voinovich. Thank you, Madam Chairman.
    I think we need to reiterate the fact, Mr. Secretary, that 
you have 180,000 people from 22 separate agencies trying to 
come together. The Government Accountability Office has said 
that the way the Department is coming together is on the high-
risk list, and I would hope that during your tenure one of the 
goals you have is to get it off the high-risk list.
    I was there when Senator Gregg gave his opening remarks on 
the Homeland Security Appropriations bill, and he showed us 
four feet of reports, many of them critical, that have been 
done on your Department during the last couple of years. I 
would hope that perhaps 2 years from now there will be fewer 
critical reports of the Department.
    How many committees in Congress do you have to report to?
    Secretary Chertoff. Boy, that is tough. I am sure, 
obviously, we have two authorizing committees, two 
appropriations subcommittees. I would say in the Senate, I 
think we interact with at least two, if not three additional 
committees, and I think in the House probably the same. So I 
think we have, I would venture to say, somewhere on the order 
of eight to ten committees probably with some degree of 
jurisdiction.
    Senator Voinovich. Madam Chairman, the issue of oversight 
is important, and the 9/11 Commission was very critical of us 
in this regard. I remember Jim Woolsey, the Director of the 
CIA, said that when Congress was in session 185 days, he made 
205 trips here to Congress. I would like you to discuss just 
how often you have been here because the more time you are 
here, the less time you have to run your Department.
    Secretary Chertoff. Well, I can say--and I say this with 
mixed emotion--that I think next week some Department 
representative will have attended the 100th hearing on Capitol 
Hill since the beginning of the year. So that is a milestone of 
some sort.
    Senator Voinovich. As you know, I am very interested in 
human capital, and I applaud you for your MAX HR program. I 
would like you to share with the Committee what would happen if 
the cut that has been made in the House of $96 million, from 
your proposed $146 million management account, became law, what 
impact that would have on your ability to get the job done.
    Secretary Chertoff. I think, Senator, it would have a very 
serious impact. As it is, I believe based on the cuts in the 
2005 budget, we extended the period of time for phasing into 
MAX HR from 2 years to 3 years. I think we are in jeopardy if 
we don't adequately fund this to have the worst of all worlds, 
which is to have a pending change of significance but no 
ability to move it forward, which creates a great deal of 
tension among the employees and a great deal of uncertainty. So 
I would strongly encourage full funding to allow us to move 
forward.
    Senator Voinovich. In other words, without full funding, 
you are not going to be able to implement the human capital and 
other management things that Congress has asked you do.
    Secretary Chertoff. We will not be able to do it in a 
reasonable or timely fashion.
    Senator Voinovich. As a Governor, I dealt with FEMA, and 
from my perspective it is the agency with the most expertise in 
working with State and local governments to prepare for, 
respond to, and recover from events. Many stakeholders consider 
that FEMA's role was diminished after it was incorporated into 
DHS. Under your Second Stage Review, it appears that the FEMA 
Director would not report to the Under Secretary for 
Preparedness.
    Secretary Chertoff, with the Division of Preparedness and 
Response, how will FEMA's all hazards mission be coordinated 
with the roles and responsibilities of the Under Secretary for 
Preparedness?
    Secretary Chertoff. The Under Secretary for Preparedness, 
Senator, is going to have to--let me actually begin by saying 
FEMA does a terrific job and has done a terrific job. What we 
have tried to do is make sure FEMA is focused on the mission 
that it is obligated to do and that it does well.
    Now, preparedness really covers the gamut. It covers 
prevention as well as protection as well as response and 
recovery. The expertise that will be drawn upon by the 
Preparedness Directorate will be clearly expertise residing in 
FEMA, also expertise that comes out of the Coast Guard and out 
of some of our other operating arms as well, including, for 
example, Secret Service, which does a very good job in 
developing the kind of planning you need for preparedness.
    So the idea here is not to decouple the skills of FEMA from 
Preparedness. It is to allow FEMA to pursue its core mission as 
a direct report to the Secretary and then look to the 
Preparedness Directorate to draw on FEMA's skill set and the 
other skill sets in equal measure in order to make sure it is 
covering the entire gamut of preparedness from prevention 
through response and recovery.
    Senator Voinovich. We had a hearing this morning on 
National Capital Region security coordination. You have a Mr. 
Lockwood in your Department, and I must say that I was 
impressed with his testimony.
    Secretary Chertoff. Yes.
    Senator Voinovich. I asked him how many people he had 
working for him, and he explained it to me. The gentleman who 
represented the State of Maryland said that Mr. Lockwood does 
not have the people necessary to get the job done. I would 
appreciate your looking into that situation.
    I am very concerned that so often we--the Congress--ask the 
Executive Branch to do a mission, and we do not give them the 
resources to get the job done.
    Secretary Chertoff. I agree with that. I think they have 
done a fine job, and I think, in fact, it was in working with 
that office and the Mayor of Washington and the Governors of 
Virginia and Maryland in the most recent period of time after 
London last week, I saw what a fine job they do. And I will 
certainly make sure that they are adequately supported.
    Senator Voinovich. Thank you.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Secretary Chertoff, I am sure you will agree with me that 
financial accountability is critical to the success of the 
mission of DHS. That is why I wish to bring to your attention 
the Administration's noncompliance with legislation. I, along 
with Representative Platts and former Senator Fitzgerald, 
successfully passed legislation that brings the Department 
under the Chief Financial Officers Act. Our bill, which became 
law on October 16, 2004, requires the President to appoint a 
Chief Financial Officer for the Department no later than 180 
days after enactment. As with all CFOs, the DHS CFO is to 
report directly to the Secretary. However, your Second Stage 
Review neglects the position. I would be interested in knowing, 
first, the status of the nomination of a CFO as required by the 
Department of Homeland Security Financial Accountability Act of 
2004; and, two, given the direct reporting requirement under 
law, where will the DHS CFO be placed in the proposed 
reorganization?
    Secretary Chertoff. Well, I don't know that we have 
identified the person to hold that position yet. We currently 
have a person on an acting basis who is holding the position. 
It is important--obviously, there is a legal obligation of a 
direct report, and I can tell you that I probably work more 
closely with the acting CFO now than I do with many people in 
the Department. I think it is important, though, that still 
remain well coordinated with our overall management function.
    As I say, I envision complying with the law, but making 
sure that our CFO and his very important function, first of 
all, has authority and coordination over the entirety of the 
Department, which I think is critical in terms of making sure 
the financial system works together, and that it is closely 
configured with the other management elements of the 
Department, which include procurement, human capital, and 
things of that sort.
    Senator Akaka. Mr. Secretary, this morning, the 
Subcommittee on Oversight of Government Management, chaired by 
Senator Voinovich, held a hearing at my request on security in 
the National Capital Region. We discussed how important the DHS 
Office of National Capital Region Coordination, ONCRC, is to 
the success of the NCR. Under your proposal, the Director of 
ONCRC would report to the Under Secretary of Preparedness 
instead of to you, the Secretary, as is current policy.
    My question to you--and this has been touched on already--
is: What rationale led you to create another layer of 
bureaucracy between yourself and the National Capital Region? 
And, two, what steps do you intend to take to ensure sufficient 
full-time employees rather than detailees are available to 
staff this critical function?
    Secretary Chertoff. Well, again, there are numerous direct 
reports to the Secretary, and what we have tried to do is look 
at the actual work flow and pattern within the Department and 
configure people who do a lot of work closely together in a 
manner that gets them close together in the organization chart.
    The National Capital Office, which has really the function 
of preparedness for the capital, does something that needs to 
be very closely linked with preparedness in general. For 
example, a lot of the work that we want to do under our 
proposed Chief Medical Officer is going to have direct effect 
on the capital because we have suffered an anthrax attack here.
    I want to make sure they are working together. In fact, 
what this does is it enhances the ability of the National 
Capital Office to participate in our preparedness planning, and 
including the biopreparedness planning, using the perspective 
that he has, drawing from the unique challenges that you face 
in this particular city given the fact that it is the seat of 
government.
    So I actually do not view it as diminishing the role of 
that office, but actually as enhancing its ability to touch and 
influence many of the preparedness functions that we need to 
use that will be of direct significance to protecting the 
capital of the country.
    Senator Akaka. Mr. Secretary, you have mentioned the need 
to enhance and speed up baggage inspections, and you call for 
more research on sophisticated detection equipment. I have a 
suggestion that is budget neutral. To help solve this problem, 
I urge you to improve TSA screener rights and protections. As 
an example, the checked bags at Dulles International Airport 
are placed on conveyors where they are taken to the basement 
for inspection. Bags are physically lifted off the conveyor 
belts, placed on screening machines, and then again lifted off 
and loaded on baggage carts. If a conveyor belt breaks down, 
which happens often at Dulles because several airlines ignore 
weight limits and the machinery is overstressed, the bags are 
physically moved by TSA baggage screeners many yards to a 
working screening machine.
    This example clearly demonstrates why employee input on 
working conditions and new technologies is important because 
employees know firsthand the impact technology will have on 
their ability or inability, as the case may be, to do their 
jobs.
    However, without the rights and protections granted to the 
other DHS employees, TSA employees may hesitate to disclose 
problems that directly affect the efficiency and security of 
our transportation systems as well as costs, since TSA 
employees have high rates of workers' compensation claims due 
to the physical nature of their jobs.
    I believe granting TSA screeners full whistleblower 
protections, including appeal rights to the Merit System 
Protection Board, will improve our screening capability. And I 
ask you, what is your view on whistleblower protections for TSA 
employees?
    Secretary Chertoff. Well, first of all, I do not think that 
anybody needs to hesitate about suggesting improvements in the 
screening system. In fact, I believe that when we do 
procurements, and particularly when we design requests for 
proposal, we need to do that by up front going to the operators 
and making sure we understand the operational conditions and 
constraints. It makes no sense, as you point out, to build 
equipment that in real life does not work because the people 
who operate it--it does not work in the real-world environment.
    So we are going to be encouraging participation by people 
with operational experience in the process of designing and 
procuring our systems going forward.
    Senator Akaka. Thank you.
    Chairman Collins. Thank you, Senator Akaka. Senator Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Madam Chairman.
    Thank you, Mr. Secretary, for your testimony. A couple of 
things. First of all, to follow up on CFO. I do not know if you 
are aware, but the Federal Financial Management Subcommittee 
has been looking at this, and I can tell you in terms of the 
President's management agenda, a qualified and vibrant and 
active CFO is a must for you to meet that, plus the PART 
assessments, plus IPIA, which is the Improper Payments Act, 
plus all the other acts from GIPRA on up, so I would just 
encourage you to get that settled because that is going to help 
us help you.
    The second thing, under your six imperatives that you 
outlined, the second one dealt with borders and immigration. 
You mentioned strengthening border security, interior 
enforcement, and reforming immigration processes. I note that 
the third was reforming immigration processes, and I understand 
that works with it, but I want to make sure you understand that 
the consensus in the country, even though we have to have some 
immigration reform, is to secure our borders, northern and 
southern, and it is important for me, for this President and 
the people who work for him in positions such as you, to let 
the American people know what we are actually doing and what is 
the priority. Is it to change immigration policies, or is it to 
secure the border?
    I understand that they all are interdependent, but which is 
the greatest priority?
    I would also bring forth to you the fact that we had some 
questions of Mr. Aguilar in some of our oversight hearings, one 
of which is I asked him specifically to get to me exactly what 
they needed, his Department, to secure the border. I want to 
tell you, what he sent us could have come from a second grader 
in terms of being vague, noncommittal. In other words, he sent 
us some information but did not send us any information. I 
think that is inappropriate, first. Second is we really do need 
to see assessments. You see the amendments on the Senate floor 
about increasing border patrol? That is a reflection of the 
tension that is in the country, and I would just ask for you to 
comment on what we are doing on our borders. Do we have the 
money? Do we have the personnel? Do we have the training 
capabilities to secure the border first in conjunction with our 
immigration reform?
    Secretary Chertoff. I am acutely aware of how troubled 
people are, and justifiably, about the situation at the border. 
I think I said in my speech that flagrant violation of our 
borders not only undermines our security, but it really flouts 
the rule of law, and of course it imposes a particular burden 
on the border communities.
    I do not know when you got the information from Chief 
Aguilar, but I can tell you what we are doing. We are, as I 
said earlier, looking at this whole picture as a total system 
because the tendency--I can say, going back to my years when I 
was a prosecutor, a line prosecutor in the Federal Government--
sometimes is to flood a lot of resources to a piece of the 
system in a way that breaks the system.
    This is about border patrol agents in part, but only in 
part. You have to be able to deploy them effectively. That 
means you have to have surveillance technology, it has to be 
integrated, in command and control, with the boots on the 
ground. You have to have changes in infrastructure so people 
can move more quickly. And then you have to do some other 
things. You have to have, for other than Mexicans--you cannot 
simply deport to Mexico--you have to have beds. But then when 
you look at beds, you have to ask yourself this question, how 
long does somebody occupy a bed? It now takes an average of 
about 40 days to get a person back to their home country. If we 
can cut that, we have effectively doubled the beds.
    You understand the point. I think we have now mapped out 
this system in its entirety. I think we now know all the moving 
pieces. I will tell you I personally spent a fair amount of 
time, including some weekend time, on this. We are now finding 
a program manager, and we need to build a very specific set of 
plans that will now do things like, say, OK, for every X number 
of border patrol or X number of OTMs, how quickly do we have to 
move them out of their beds? What do we need to do that? Where 
does that mean we flow the funding?
    You are exactly right to expect that we do that. One of the 
main reasons I am arguing for a policy and a planning 
directorate is to give us the people who can take these 
policies and now really, literally grind out the instructions 
very specifically about how we get there. I am convinced we can 
do it. We are working on it now. We are looking to start 
immediately on the detension and removal issue. It is not going 
to happen overnight, but we are also looking to do a system-
wide procurement for a suite of technology and infrastructure 
and people that will be integrated and will get us to where we 
need to go in a way that does not create a bottleneck.
    Senator Coburn. Let me just follow up. We also had a June 7 
hearing on the Subcommittee on Terrorism and Technology and 
Homeland Security. Mr. Aguilar discussed the expedited removal 
process for OTMs on our southern border. I was impressed by 
what we have heard so far. Currently that is being done in 2 of 
20 sectors, both on the southern and northern border. Senator 
Kyl asked him for a time frame when we could expect this to 
expand from 2 to 20, and Senator Kyl's actual words were, ``Are 
we talking about a matter of months, or what are we talking 
about?'' And Mr. Aguilar's quote was, ``I would feel 
comfortable with that if DHS approves everything else, yes, 
sir.''
    So what does it take to approve that so that we get that 
type of process going in all 20 sectors?
    Secretary Chertoff. I have approved it, I think, for a 
couple more sectors since then. The limiting factor, Senator, 
is beds. An expedited removal for a non-Mexican means you have 
to arrange to send them back to their homeland.
    Senator Coburn. I understand.
    Secretary Chertoff. Now we need beds, but let me just give 
you one other little example of a small thing we could do that 
would make it better. Right now sometimes we wait, I think, for 
a period of days perhaps for a consular officer from a local 
country to appear and talk to the person before we can move him 
out. If we put in video conferencing and we get them to do it 
in a matter of hours, we can cut bed time.
    So Chief Aguilar was right. We are talking about rolling 
this out. We are talking about a matter of months to scale this 
up. But we need to make sure that when we scale it up on 
expedited removal, we have fully scaled up all the rest of the 
process.
    Senator Coburn. And you feel confident that is moving 
along?
    Secretary Chertoff. Yes.
    Senator Coburn. Thank you, sir.
    Chairman Collins. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Secretary, those of us who come from urban area States 
are extremely concerned with the commentary made about transit 
systems and the Federal role in helping fund security for those 
systems. Now, many of these systems are interstate systems. We 
have Amtrak. Is Amtrack considered part of a national 
responsibility or does that, too, get divided up somehow in 
terms of supplying security funds?
    Secretary Chertoff. I think Amtrak police are Federal 
employees. I mean, as I say, I have ridden the same systems 
that we are talking about for many years. I do not think 
anybody suggested we make the New York City Transit Police 
Federal police, or the New Jersey Transit Police Federal 
police. The hiring, the payment, and the managing of those 
police will continue to remain, as I understand it, in the 
State and local hands.
    What we can do is we can add value in areas like technology 
and things of that sort, and we can give some financial help. 
But I guess, again, the way the ownership and the operation of 
those systems works is different in every different context.
    Senator Lautenberg. It is a clouded definition, and we are 
going to need Federal help in many of these operations. We just 
do not have the means in the States to take care of it on our 
own.
    Mr. Secretary, we took an action here yesterday that runs 
contrary to the statement that you make that you would oppose 
any amendment that does not allow 90 percent of the funding to 
be based on higher risk. Now, yesterday we voted within the 
Senate to decrease the funding that goes to the high-risk area 
by $138 million, confirmed by CRS. Does that represent an 
impairment for your operation in any way? Is it too small a sum 
to be concerned about?
    Secretary Chertoff. I thought I was about as clear as you 
could possibly be in the letter, and I am sure I am better in 
letters than I am sometimes when I speak off the cuff. I mean 
obviously the closer we move to a totally risk-based system, 
the more ability we have to manage our resources in an 
effective way. Again, risk-based means looking at consequence, 
vulnerability, and threat. And as I tried to make clear, you 
cannot necessarily tell--maybe some people think they can--I 
cannot necessarily tell you which States, ``win or lose under 
that formula.'' What I can tell you is that a risk-based 
formula that lets us use our resources in a way that is driven 
by our analysis of risk as opposed to predetermined categories 
is what we favor.
    Senator Lautenberg. Are you familiar with the statement 
made about the most dangerous 2-mile stretch in the country as 
an invitation for a terrorist attack; you are familiar with 
that?
    Secretary Chertoff. We have talked about this, I know we 
have, yes.
    Senator Lautenberg. Do you believe that is true?
    Secretary Chertoff. I cannot tell you what the most 
dangerous 2-mile stretch is. I can tell you we look in a very 
disciplined way at all the infrastructure and the way 
infrastructure is built around each other, and we are very 
mindful of what reflects the highest dangers based not only on 
obviously the location of the population, but also the 
relationship with the infrastructure that can have cascading 
effects on things that are very far distant.
    I think again, I mean what we advocate is, and what I 
advocated in the letter is, a funding mechanism that allows us 
to use some of the tools we have developed, and some of them 
are quite sophisticated, in analyzing threat vulnerability and 
consequence of all different kinds of infrastructure in 
different parts of the country and then let us allocate the 
money on that basis. Again, bearing in mind what I said, a lot 
of the infrastructure is in private hands, and so that means 
the private sector has to bear its fair share of the 
responsibility, as do our other partners.
    Senator Lautenberg. It is suggested in a review of chemical 
hazards in the country, that fairly significant damage could 
result from an attack on any one of these. One of the most 
threatened place to the largest number of people is a chemical 
facility in Carney, New Jersey, which is part of the New York/
New Jersey region, and it is estimated that as many as 12 
million people could perish if an accident or a raid took place 
there. Do you have any reason to challenge these estimates?
    Secretary Chertoff. I cannot say that I have heard of 12 
million based on a single chemical plant. I can tell you what 
we do, and what we are continuing to do, is look at chemical 
plants, for example, and I think we have grouped them into 
tiers in terms of the threat that they would pose to particular 
parts of the country or numbers of people. It depends a lot on 
the nature of the chemical, the location of the plant, and how 
it is configured relative to other parts of a particular 
community, and I certainly do not want to announce publicly 
what the most dangerous ones are, but that is the model we are 
going to look at, as to the extent we have the ability to apply 
our resources in a risk-based way, and that is the kind of 
modeling we will use and go forward on.
    Senator Lautenberg. Thanks very much.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you very much, Madam Chairman.
    Mr. Secretary, just to follow up on Senator Lautenberg's 
comments, the whole idea of risk assessment is not an exact 
science. It is not a mathematical calculation that will allow 
you to rank order of most risk. There is a whole range of 
factors that enter into that, including the part that we do not 
understand, which is what is in the mind of the terrorist, soft 
targets, hard targets. Minnesota has a nuclear power plant on 
the Mississippi River, so it is not a matter of the number of 
people that could be affected. You could affect commerce, one 
of the major flows of agricultural commerce in the United 
States, if that was the target, or the Mall of America, which 
is in a suburb outside of Minneapolis-St. Paul, but has 30 or 
35 million visitors a year and is a symbol.
    As we go about doing what we do in the Senate, I mean those 
of us who represent States with large cities but not of the 
size of New York or Los Angeles, risk is throughout this 
country. Do you think that is a fair statement?
    Secretary Chertoff. I do, and I think, something here, 
Senator, I wanted to point out because it did not get as much 
attention in the speech as I thought it might, when we talked 
about the bio, having a chief medical officer and making 
preparedness for biological threats, putting it in the top rank 
of things, I was careful to talk about threats to animals and 
to our food supply. I mean that is something which people do 
not talk about perhaps that much here in this part of the 
country, but we all eat. I think we are all familiar with the 
impact, for example, that foot and mouth disease can have on 
our agriculture, and just look at what happens with one cow. So 
that is an example of something that I do put as high risk.
    Again, every risk we deal with differently does not mean we 
are going to have Federal cattle police sitting on the farms, 
but it does mean that when we think about preparedness, that is 
the kind of thing that I do want to put a lot of emphasis on.
    Senator Coleman. I would note that I did not make a formal 
statement, but in my formal remarks I wanted to say I was 
encouraged by the focus you have provided with a chief medical 
officer and the impact that has on food safety which is a huge 
issue.
    But let me just talk about the issue of preventing 
terrorists from acquiring and detonating nuclear weapons. 
Clearly, it is a major concern. I think I recall in the 
presidential debate that this was one of the issues both 
candidates said, ``this is the most important issue that we are 
facing.''
    There are two areas I just want to probe, the first being 
radiation portal monitors. I know that you are committed to 
getting those employed. I believe that we are, almost 4 years 
after September 11, I think we have one seaport has complete 
installation of RPMs. Can you tell me what your vision is and 
when you think we can get that done?
    Secretary Chertoff. I think we have RPMs at a number of 
ports, land and sea. I think there may be a couple that have 
been 100 percent done. Others are not 100 percent. We want to 
continue that process, but the President's budget requests 
money for a Domestic Nuclear Detection Office, which would get 
us to the next level. We want to make sure we are working on 
the next level of detection equipment as well.
    Senator Coleman. And that is the other area that I wanted 
to say that I am encouraged by the creation of a Domestic 
Nuclear Detection Office.
    My question is concerning the ability of that office to 
coordinate with departments outside of the Departments of 
Homeland Security, Defense, State, and Energy. Can you tell me 
a little bit about what steps that you will take to ensure that 
DNDO will be fully coordinating its activity with those 
branches of government that are outside DHS?
    Secretary Chertoff. Sure. And one of the reasons I wanted 
to make a direct report was to give it the stature to attract 
people in the office that would not just be DHS people, but 
would be senior people from the Department of Energy and the 
interested departments. I have spoken to Secretary Bodman about 
this. We are both very committed to making this work. I know 
the President is personally interested in this as well. I think 
we all know this is a unique threat, and that is not to say 
that it is a threat that is imminent, but it is a threat that 
if it ever comes to fruition would be of a character unlike 
anything we have ever seen.
    So there is a very high level of commitment to making this 
thing work, and if we can get the adequate funding--we are 
already working on it--we are going to continue to move in a 
very brisk fashion.
    Senator Coleman. And I do want to applaud you. I think it 
is a bold step, and I think it is critically important.
    Let me just ask about the soft side of Homeland Security, 
but one that has a lot of impact on people's lives. The 
requirement that is being instituted now for passports, travel 
between the United States, Canada, Mexico, the Caribbean. In 
northern Minnesota and I presume in northern Maine and maybe 
some other places, people have a lot of commerce that goes back 
and forth, and they do not have a lot of options for commerce. 
What they have is important, and that you want to maintain it. 
They travel back and forth. They do not keep their passport in 
their back pocket. It is about 97 bucks for a passport. If you 
have a family of five and you want to go fishing, all of a 
sudden you--you do not, by the way, have the passport 
operations in those areas. If you look at a map of where the 
offices are, they are not in the areas very directly impacted, 
in those northern regions.
    So I am concerned about the impact on ordinary citizens. It 
is that kind of balance between securing our borders, which the 
Senator from Oklahoma talked about, but also doing it in a way 
that does not unduly burden average Americans going about 
living their lives, and particularly those areas that it is a 
real economic impact, is a real quality of life impact. Are you 
considering other ways to address this other than the passport 
requirement?
    Secretary Chertoff. We are, Senator, and I think we made 
clear at the very beginning we were looking and anticipated 
alternatives to passports. Obviously, a passport would be 
sufficient. And by the way, I do not think this requirement 
would come into effect under the law which Congress passed as 
part of, I believe, the Intelligence Reform Act for a few 
years. We have a few years to stage into this.
    But the idea is to identify other forms of secure 
identification that would suffice for purposes of doing this, 
and that is again why I am driving the point of having 
interoperable systems of cards and verification of documents so 
that you could use a wallet-size card that would do a number of 
different things for you, and it may be that under the--as we 
develop our regulations under the REAL ID Act, it may be that 
we can move to the point that even driver's licenses will be 
able to satisfy the requirements of the statute.
    Senator Coleman. Thank you, Mr. Secretary.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Coleman follows:
                 PREPARED STATEMENT OF SENATOR COLEMAN
    I would like to begin by commending your foresight and strong 
leadership in re-examining the structure and priorities of the 
Department of Homeland Security. The terrorist attacks in London last 
week reminded us that we are still engaged in a Global War on 
Terrorism. These attacks underscore the importance of this review and 
remind us that our enemies continue to seek to harm us and therefore, 
we must continually work to strengthen the security of our homeland. 
Both DHS and the Senate must collaboratively ensure DHS is adequately 
structured, financed, and focused to protect our homeland. I personally 
look forward to working with you and DHS to pass the legislation needed 
to implement the reforms you have outlined.
    I am privileged to Chair the Permanent Subcommittee on 
Investigations and, as you know, we have closely followed supply chain 
security--specifically the implementation of the Container Security 
Initiative, or CSI, and the Customs-Trade Partnership Against 
Terrorism, or C-TPAT. As we discussed with Commissioner Bonner at our 
May 26 hearing, entitled ``The Container Security Initiative and 
Customs Trade Partnership Against Terrorism: Securing the Global Supply 
Chain or Trojan Horse?'' these programs are promising concepts, yet 
require considerable changes to transition into sustainable 
initiatives. Commissioner Bonner and CBP have begun to implement some 
positive changes, yet much work remains. To follow-up on our May 
hearing and assess these changes as well as the impact on the private 
sector, PSI will hold another hearing on this issue in the fall.
    I am encouraged by the launch of the Secure Freight Initiative and 
hope to hear you expand upon this during your testimony today. I also 
hope, Mr. Secretary, that DHS will continue to work closely with my 
Subcommittee on programs and initiatives to strengthen our supply chain 
security. And as I have said previously, instead of security becoming a 
cost of doing business, it must become a way of doing business.
    My Subcommittee is also closely following programs designed to 
confront the threat of nuclear terrorism. The threat of terrorist 
acquiring and detonating a nuclear weapon in the Untied States is real 
and we need to prioritize programs to prevent terrorists from obtaining 
material as well as programs to detect these materials abroad and 
domestically. It is simply unacceptable that today, almost 4 years 
after September 11, only one seaport has actually completed the 
installation of Radiation Portal Monitors, or RPMs. I am encouraged to 
hear that you have publicly indicated that the deployment of RPMs will 
be completed and urge that this becomes a top priority of DHS. 
Installing these portals must be a priority and this job must be 
completed.
    Also, as you may know, I am a strong supporter of the Domestic 
Nuclear Detection Office and believe that under the direction of Vayl 
Oxford, this is the right and necessary concept for a coordinated and 
focused response to the threat of nuclear terrorism. No reform is more 
important in preventing a nuclear attack than eliminating the diffuse 
and disparate programs within DHS and across other Departments. I urge 
your personal involvement as DNSO seeks to enhance the coordination of 
the various Departments engaged in this issue.
    Just like Chairman Collins, as a representative and a resident of a 
border State, border security is an issue of personal interest and 
importance to my constituents. We need to implement strong and sensible 
policies to secure our border, yet need to be mindful of the millions 
of Americans who travel freely across this border on a daily basis. As 
you all know, I have expressed concern over the far-reaching and 
perhaps, unintended consequences of the Western Hemisphere Travel 
Initiative. I hope that together we can find an acceptable solution 
that ensures security without infringing upon the lives of millions of 
my fellow residents along the Northern Border.
    To that end, I would also like to note that my Subcommittee will 
continue to follow border security issues closely and focus on programs 
that facilitate trade, process people, and deport individuals that are 
here illegally. Strengthening these initiatives will ensure that all 
our borders are more secure. Finally, I am very excited that the 
legislation championed by Senators Collins and Lieberman--and which I 
co-sposnored--was recently passed by the Senate and will lead to the 
fair distribution of homeland security grants.
    I want to thank you for addressing the grant problem between 
Minneapolis and St. Paul and also thank you in advance for taking the 
time to visit my good friend, Mayor Kelly in St. Paul next week. I look 
forward to your testimony today, and look forward to continuing to work 
with you as a Member of this Committee, as a Subcommittee chairman, and 
as a concerned citizen who wants to make our country more secure.

    Chairman Collins. Senator Pryor.
    Senator Pryor. Thank you.
    Secretary Chertoff, let me ask if I may something that 
Senator Coleman referred to a few moments ago and you followed 
up on about the food supply and agriculture generally.
    What is your assessment of the risk of an attack to 
agriculture, what we call that agroterrorism?
    Secretary Chertoff. I do not know that I can give you a 
number. I think the general issue of biological attacks on 
human health and animal health and food, it is an area that we 
need to be concerned about. We know historically that 
terrorists have looked at biological and chemical weapons, and 
I think it is not hard to see how that might be applied in an 
agricultural setting, as well as in a human setting.
    Now, the principal point in our general governmental 
preparedness process for dealing with these issues is the 
Department of Agriculture, and they own the expertise. But our 
responsibility as those who essentially have to look at the 
total architecture of our preparedness is to make sure that we 
are working with the Department of Agriculture, that we have a 
good set of plans, a good set of preparedness for what to do in 
the case of an attack like this.
    Obviously, part of this is keeping these agents out of the 
country in the first place. But we also know that there are 
naturally occurring things like foot and mouth disease in the 
world, so there is a fair amount of learning and understanding 
about how to deal with that, and we just need to make sure we 
have a good set of plans and resources in place in case 
something like that should happen.
    Senator Pryor. You mentioned a good set of plans and good 
preparedness. Do you feel like the Department is there?
    Secretary Chertoff. I think we have done a lot, but I think 
by indicating my desire to consolidate preparedness and make it 
accountable in one place, that I feel we need to polish up what 
we have, and we need to make sure that to the extent there are 
issues that you have to debate about how you deal with these 
things, that we get those debates done in advance and make some 
decisions about what the appropriate course of action is 
before, God forbid, we face an actual crisis.
    Senator Pryor. So in other words, you are saying 
agroterrorism is real?
    Secretary Chertoff. I think we have to treat the danger of 
a biological attack or a chemical attack on our agricultural 
system as a priority concern.
    Senator Pryor. Also would you include as part of that, 
using agriculture chemicals in an attack, like the Oklahoma 
City bombing?
    Secretary Chertoff. That is a somewhat different category 
of issues. I mean the question of explosives--and we know that 
fertilizer can be used as an explosive----
    Senator Pryor. Right. I just mean they are much more 
available in agricultural areas.
    Secretary Chertoff. I think that is true, although I must 
tell you there are a disturbing number of household chemicals 
that can be used to make powerful explosives. So that is a 
species of a larger problem that I would consider a little bit 
separate from the biological problem.
    Senator Pryor. I may want to follow up with you on that 
separately at some point and talk about that in more detail.
    Do you think that agriculture security will be considered a 
high enough risk to be part of the risk-based funding? I mean 
are we there on that?
    Secretary Chertoff. It is clearly a high risk in terms of 
our priority. Again, I guess I want to come back to the 
original point I made to Senator Lieberman. I cannot equate 
priority necessarily with the amount of money that is spent. 
There are going to be many things that are very high priority 
in which the infrastructure, frankly, is in private hands, and 
I am not going to say that the Federal Government is going to 
pay private people to protect what they own. We will use other 
ways to encourage the private sector to do what it has to do.
    So I can tell you that agroterrorism is a very high 
priority. How that plays out in terms of funding depends on the 
particular characteristics of that sector of the economy and 
the way that business model works.
    Senator Pryor. Great. And tell me about the chief medical 
officer. How do you envision that working?
    Secretary Chertoff. Again, we do not own--the expertise in 
human health is principally HHS. The expertise in animal health 
is principally Agriculture, and that is before we even get to 
all the State officials who have a tremendous amount of 
expertise in this area. I do not see DHS as competing to seize 
control of the expertise.
    What we do have the obligation to do is to look at the 
total picture, make sure that we turn to the departments with 
the expertise, and ascertain that they have a plan in place, 
that it is properly integrated with everything else we are 
doing in terms of preventing and protecting against an attack 
and responding if we have an attack. Making sure, if there is 
uncertainty about that plan, that we get that resolved and we 
have certainty, and ultimately owning the responsibility for 
coordinating a response with these experts in the various 
departments across the board. And that is what is really laid 
out in the National Response Plan which the President has 
issued.
    Senator Pryor. I am curious about your new organizational 
paradigm there that you are trying to set up. Do I understand 
correctly that Border and Transportation Security is merging 
into Preparedness?
    Secretary Chertoff. No. What is going to happen, we are 
going to take the--Border and Transportation Security did three 
things. It was responsible for policy planning and was 
responsible for operations, but only with respect to some of 
the components of the Department. It covered, for example, 
Customs and Border Protection, TSA, and ICE. It does not cover 
Coast Guard, for example, or other functions.
    What we are doing, essentially we are building on a good 
idea. We are taking the good idea of that planning function, 
but we are making it part of a department-wide directorate that 
is going to have the ability to plan for all of the components, 
not just some of the components. We are going to take--Border 
and Transportation Security had an operational capability, but 
with respect to a few components. We are going to take that and 
create an office that can be operational coordinator for all of 
the components. Once we do that, we have effectively taken the 
functions of the BTS, and we have made them more nimble and 
made them more wide spanning across the entire breadth of the 
Department. At that point we really do not need another layer 
to stand between some of the components and the Secretary. We 
have taken out the functions, we have distributed them across 
the board, and I think we can actually flatten the 
organization.
    Senator Pryor. So if I can summarize, this sounds to me 
like it is an example of the Department being up and running 
for a couple years, learning some lessons about how some things 
work and some things do not, and you are trying to streamline 
and make things more efficient.
    Secretary Chertoff. That is exactly right.
    Senator Pryor. Thank you.
    Chairman Collins. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    Thank you, Mr. Secretary, for taking on these many enormous 
burdens. We have had two instances in the last 13 months with a 
small private plane, originally unidentified, at least not 
communicating its identification to Capitol Police, and 
evacuations, and I think both of them have demonstrated 
different gaps in communications. The first, as I recall, the 
FAA was aware the plane did not have an operating transponder 
and under its own regulations should not have been permitted, 
but it was, and they knew that. They did not communicate that. 
There was an open line established, I guess, among different 
agencies to communicate post-September 11. That was not staffed 
so the information was not shared.
    More recently, the evacuation, I believe, showed a lack of 
communication between the Federal and the City of Washington, 
DC, and as we learned this morning at a hearing that Senator 
Voinovich chaired, a subcommittee, was instructive because they 
had representatives from the States of Virginia, Maryland, and 
then Washington, DC, and then the Federal agency. And the 
complexity of these intergovernmental entities and 
relationships means, it seems, that there have to be these 
multiple communications, which in an emergency situation, seems 
the more complexity you have, the more likelihood that 
something is not going to function properly.
    Is your agency responsible? Is there an overriding 
responsibility that someone has to protect the Capitol and to 
make decisions that become necessary if that kind of a 
situation occurs again?
    Secretary Chertoff. I guess we have responsibility for 
managing the relationship and the response with our State and 
local partners. To the extent, of course, that F-16s go up, as 
they do when we have these incidents, those F-16s obviously are 
part of the Department of Defense and operate within the 
authority of the Department of Defense.
    What we did in the wake of--there frankly have been many 
incidents with small planes. Very few of them get to the point 
of getting reported. And they are by and large innocent. People 
either get mixed up or sometimes they are trying to avoid 
weather. What we did after a recent incident was we sat down 
with the city and with everybody else. We have an operations 
center in which both States and the City of Washington, DC, are 
represented and have people present who can listen real time to 
the discussion over the airways when planes are coming in.
    We decided that as a back-up it made sense for the District 
of Columbia to have somebody present in our Transportation 
Security Administration Operations Center, which is a second 
center, and have that person again able to listen live. And 
then I think there is also some additional steps the District 
has taken to tap into some of our preexisting warning 
communication systems----
    Senator Dayton. Excuse me. My concern is that in both of 
those instances, although people were evacuated--I give the 
Capitol Police, I mean they were heroic to stand their ground 
and get people out--but if either of those planes had been a 
hijacked terrorist plane, it would have crashed in the Capitol 
well before hundreds of people would have been evacuated.
    Secretary Chertoff. Well, actually--let me try to address 
it this way. Of course the time frame within which you know 
that a plane is coming is very short. We get hundreds and 
hundreds of planes that within a certain number of miles do 
raise our interest. I can tell you first of all that I do not 
think there is any doubt that had it been necessary, the Air 
Force would have had the capability to remove any threat, any 
airborne threat.
    But that raises a second question, which is to caution that 
evacuation is not always the right step in the face of an 
attack. A small plane--and I know this is being looked at now--
does not necessarily have the capability of doing to a strong 
building what people envision, let us say in the case of what 
happened on September 11. On the other hand, a small plane 
carrying a chemical or biological agent would actually do more 
damage if people go out in the street than if people shelter in 
place.
    And if there is one message I can leave to the country at 
large on this issue of preparedness is, our intuitions about 
the right reaction in the face of a threat like an airplane, 
which is often to run, sometimes turns out not to be right. 
Sometimes we are better off sheltering in place. That is why 
one of the things we encourage people to do is, as part of 
preparedness, is to think through and understand--we want 
businesses to do this, too, and government agencies--to 
understand that sometimes the right advice is do not run out of 
the building, stay where you are, maybe go down to a basement, 
and that is actually safer.
    So we have spent a lot of time on this. I am confident we 
have the situation well in hand, and we continue to monitor it 
and train on it.
    Senator Dayton. Along those lines, how does opening 
National Airport to general aviation improve our homeland 
security?
    Secretary Chertoff. What it does is it is the recognition 
of the fact that where we have sufficient systems in place to 
protect ourselves, we ought to consider lightening the burdens 
and restrictions as well as making them heavier.
    Senator Dayton. We have no security at the terminals I have 
gone to that charter planes, no screening, nothing.
    Secretary Chertoff. Actually, when the regulation becomes 
effective--and I think that should happen within a very short 
period of time, a matter of days--it will not allow general 
aviation to come in. It will require general aviation that 
comes in to be previously identified, required TSA screening at 
the place in which the general aviation departs from. It 
requires certain other security measures that are in place, 
precisely to avoid the situation you are concerned about.
    Senator Dayton. If the greatest burden placed on somebody 
is to have to land at Dulles and drive in, as I have done 
several times for that reason, I mean, it seems to me that is a 
very small burden on anyone, and with these planes you say it 
has happened a number of times without having an evacuation, it 
just seems to me having that many more planes and pilots with 
different degrees of knowledge about the procedures and all, 
you are begging for more incidents related to the Capitol. I do 
not get it. I think it is one of those burdens that can be 
justified.
    I am sorry my time is limited. I am sorry to cut you off. 
But let me ask something else. Last night Senator Akaka offered 
an amendment to increase the funding for the first responders 
program, including the UASI and the like, and we were told by 
the chairman of the Senate Budget Committee on the floor, he 
said, ``The simple fact is that you cannot disregard the fact 
that there is $7 billion in the pipeline for first responders, 
$3 billion from the year 2004, $4 billion from 2005 that has 
not been spent.'' Is there $7 billion in the pipeline because 
we would surely love to direct some of that pipeline to 
Minnesota.
    Secretary Chertoff. I think the figure I have in my mind on 
State homeland security funding and Urban Security Initiative 
Funding in the last several years, I think, is a total of $8.6 
billion. That is over a period of years. That is in various 
parts of the pipeline. Some of it has been spent, some of it 
has been obligated, some of it is going to be awarded in grant 
programs that we currently have under way.
    So again, often figures get sliced in different ways, and I 
am never quite sure----
    Senator Dayton. But never in the Senate.
    Secretary Chertoff [continuing]. How they are being sliced, 
but I can tell you that I think the figure I have for the last 
several years has been $8.6 billion.
    Senator Dayton. Madam Chairman, I will direct a question, 
if I may, and ask for a written response that really details 
that because I think if that was a misstatement on the Senate 
floor, it should be corrected. If it is accurate, I would like 
to know why there is $7 billion that has not been distributed 
and why areas of Minnesota were zeroed out in funding, and I 
will follow up on that.
    Finally, I noted with interest your comments in your 
prepared testimony, Mr. Secretary, about FEMA. We have had a 
couple of experiences in Minnesota with flooding disasters. In 
1997, the Red River flooded and Grand Forks, East Grand Forks, 
and the lake were seriously damaged. From all accounts, FEMA 
was outstanding there and responsive, minimum of red tape. When 
the city of Roseau in Northwestern Minnesota flooded in 2002, 
it was not the same efficiency of response. I was up there 
myself a couple of times in the immediate aftermath, and the 
FEMA individuals came in from, I believe it was Washington 
State, but they were right on the spot. They could not have 
been more wanting to be forthcoming.
    But they were trying to explain these programs to 
beleaguered men and women who lost their homes, lost their 
businesses, lost their farms, whatever, and you had to have an 
advanced degree in computer science to track these different 
programs and intricacies and everything else. And then they had 
to apply, and then they got turned down, and then they did not 
know they had to appeal. I mean we could have made it a lot 
easier, and without just throwing money at people, they needed 
some oversight. This is a time when people are down and out, 
they are in despair, and if ever government needed to undo a 
lot of the bureaucratic red tape and just be able to be 
forthcoming in a reasonable way would just improve, I think, 
not only the quality of the service but just the attitude that 
those people have toward their own government in a time of 
critical need.
    So I would urge you to bring to us, as soon as you can, any 
suggestions or whatever you need from us, to untie the hands of 
these people and simplify these programs or assistance, and 
authorize the people on the spot to do a job, empowering them 
to approve these awards and get the money in the hands of these 
people.
    Thank you. I am finished. Thank you.
    Chairman Collins. Thank you. I just want to make sure 
Senator Carper has time for his questions because the vote has 
started.
    Senator Dayton. He said I could have his time.
    Chairman Collins. And you did. [Laughter.]
    Senator Dayton. He does not remember that.
    Senator Carper. I would like to insert my prepared 
statement at this time.
    [The prepared statement of Senator Carper follows:]
              OPENING PREPARED STATEMENT OF SENATOR CARPER
    Thank you, Madam Chairman, for holding this important hearing on 
Secretary Chertoff's plans to refocus and reorganize the Department of 
Homeland Security.
    I supported the creation of the Department of Homeland Security as 
a Member of this Committee 3 years ago now because I believed it would 
enable Federal agencies to do better, and more efficiently, prevent, 
prepare for, and respond to disasters and terrorists attacks. Since the 
Department came into being, I think we've had some successes. There are 
certainly areas, however, that need improvement.
    We established the Department of Homeland Security to reduce the 
vulnerability of the Untied States to terrorism. The bombings in London 
last week and in Madrid last year, however, demonstrate the very real 
threat to our own transit and rail systems.
    But to date, the Department of Homeland Security, to my knowledge, 
has not set out a review of the threats to and vulnerabilities in our 
surface transportation system. Nor has the Department provided standard 
guidance to our Nation's transit and rail operators as to how they 
should protect their riders.
    We need the Department of Homeland Security to work proactively to 
establish standards and help build the infrastructure necessary to 
prevent and prepare for future attacks. They can't respond only to the 
specific type of attack we suffered on September 11. But the Department 
has failed, in my view, to tackle rail and transit security needs the 
way they've tackled aviation security.
    In the Department's defense, Congress hasn't put the same focus on 
rail and transit security as we have on aviation security either, and 
this is something we need to change. The Senate unanimously passed 
legislation last year to establish a transit and rail security program. 
However, the House did not act on it before the end of the session and 
neither body has done anything since.
    While we've stood by, the FBI has warned us on more than one 
occasion that al Qaeda may be directly targeting U.S. passenger trains 
and that their operatives may try to destroy key rail bridges and 
sections of track to cause derailments. Following the successful 
attacks in London and Madrid, it's likely that al Qaeda and other like-
minded groups will target rail and transit systems in the United 
States. We need to provide our transit agencies and Amtrak with the 
guidance and support they need. We can't afford to wait for a London- 
or Madrid-style attack to occur on our shores before taking action.
    Further, many municipalities--including the District of Columbia--
are concerned about the movement of hazmat by rail and by truck through 
their cities. Because the lack of Federal guidance regarding who must 
be informed about hazmat movement through sensitive areas, cities and 
States are moving ahead with their own rules and often fighting this 
out in the courts. The experts at the Department of Homeland Security 
need to analyze this issue and provide us with some guidance so that we 
can provide a consistent, safe standard regarding the movement of 
hazardous materials across our country.
    In closing, I'd note, Madam Chairman, that Secretary Chertoff 
mentioned in his speech yesterday announcing the results of his second 
stage review the need to tighten transportation security--including 
rail and transit security. I look forward to hearing some details this 
afternoon about what he might have in mind in this area because it's 
vitally important that we hit the ground running in the wake of the 
London bombings and work together to do what needs to be done to 
prevent loss of life here at home.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Secretary, welcome. Thanks for joining 
us again today. It is good to see you as always.
    I know this question came up earlier, and I was unable to 
be here when it was raised. But I believe you may have 
testified before a committee in the House either today or 
yesterday. I was asked by a reporter to respond to something 
that she thought that you had said. The tenor of her question, 
the thrust of her question was: Secretary Chertoff suggested 
before the House yesterday or today that the States really 
should assume the responsibility for underwriting the cost of 
terrorist protection, or protection against terrorist attacks 
on inter-city passenger rail and on commuter rail services. I 
do not know if she was goading me or what, but she was trying 
to get me to kind of lash out at you. And my first response 
was, I find that hard to believe that he would have said that. 
So I think it has probably come up here earlier, but I just 
wanted to hear it with my own ears what you said.
    Secretary Chertoff. It did come up earlier, Senator, and it 
is fascinating to watch the velocity of misunderstanding as it 
increases over time. While I may not have been crystal clear, 
what I said to the reporter--it was not in a hearing, but what 
I said to the reporter is this: We deal with different 
systems--we obviously have a Federal responsibility for 
protecting everybody in the country. We deal with the mechanics 
of different systems, and so the way in which we carry out that 
protective responsibility differs in different systems. The 
aviation system is one in which it is a closed system, and 
basically Federal authority is the only government authority 
that operates in the area of air travel.
    When it comes to, for example, subways--and here I am 
speaking from my own personal experience riding subways--a lot 
of the boots on the ground are local boots on the ground. There 
are transit police, local police, and conductors.
    Although we have, for example, screeners at the airport 
that are federally employed, I do not think anybody would 
suggest we should federally employ all subway, transit police, 
or subway conductors.
    The way in which we work with protecting our transit 
systems is to work in partnership with State and local 
authorities. And the boots on the ground largely are owned by 
those State and local authorities, they are not Federal police.
    What we do bring to the process is we give assistance, we 
have technological assistance, we have intelligence. I have 
talked at some length here about some of the detection 
equipment and detection systems we have worked with the States 
and locals to put into place, as well as worked with, which we 
are continuing to be doing. And of course we have made aid 
available through various transit programs, as well as through 
the President's budget, which contemplates $600 million in 
targeted infrastructure protection that is available for 
transit systems.
    We talked earlier about the State Homeland Security grants 
and the Urban Security Initiative grants. That is $8.6 billion, 
and that money is certainly--transit protection is eligible for 
that kind of assistance.
    So we play a major role working with our partners in 
protecting our rail and bus systems. But the way in which that 
role is played, of course, is different in that partnership 
setting than it is, for example, in a setting, in an aviation 
setting where it is a different kind of a system.
    Senator Carper. I am told that if you add up all the people 
that ride subways and buses and trains, and you look at the 
amount of money that we are spending as a Nation to protect 
them from terrorist attacks, it works out to about 12 cents per 
rider. I am told that if we look at the amount of money that we 
spend on those of us who ride airplanes around the country and 
around the world, that we spend as a Nation about $7.50 dollars 
per rider. I do not know if those numbers are correct, but if 
they are, we are spending roughly 50 times more for a rider on 
an aircraft than we are on those who may be on a train or on a 
subway.
    I appreciate the need for a partnership, but I have a 
concern. There are a lot of other expenses and needs that State 
and local governments are trying to meet with the Federal 
grants that they get, and to load onto that a major expectation 
for them to help protect inter-city passenger rail and transit, 
I think is unwise, and I am encouraged by what I hear you say, 
but I want to have a chance to think about it a bit more.
    Let me just come back to funding for this current fiscal 
year. My recollection was in the appropriations bill for 
Homeland Security in fiscal year 2005 that we included about 
$150 million to look to the needs of transit security in 
particular. I do not know that there is any money there for 
inter-city passenger rail, but about $150 million. And I am 
told that we spent precious little of that money during the 
course of this fiscal year. I do not know if that is true. 
Maybe you can clarify that for me if it is. But if it is true, 
if we spent none or little of the $150 million. I am also told 
the Administration did not ask anything specifically for 2006. 
I think we have about $100 million in the bill now on the 
Floor, probably going to adopt an amendment to add to that. But 
my question is, what is the Department doing to facilitate 
moving that money out to where it might be put to best use?
    Secretary Chertoff. We retooled our process of analyzing 
how we were spending this year in order to be somewhat more 
rigorous and disciplined in terms of how to get the money out, 
and I think the real money, some of the real money that was 
stopped is now in the process of being moved out.
    I have to say, I think, I read an article in the paper in 
the last couple days where the head of the New York 
Metropolitan Transit Authority said he had a lot of money he 
had not spent yet. And they were asking him why, and he said: 
``Because I do not really know what to spend it on. I am 
waiting to see what kind of technology is the best technology 
to use.''
    This is very important to protect transportation, but it is 
important to protect it in the right way and not to waste the 
money, and I can guarantee you, if we waste the money I am 
going to be reading stories in a year about how we wasted money 
on gyms and stuff like that, which I know from going back a 
couple years.
    Senator Carper. It is hard to waste money when we are not 
spending it. I do not think anyone is going to accuse you of 
wasting money in providing for transit security.
    Secretary Chertoff. I think what we are doing is we are 
spending it, but I think we have a program now to make sure it 
is being spent wisely, and of course, again, when I hear the 
head of transit authority say, well, he is not sure he wants to 
spend his money yet because he does not know what to spend it 
on, that does put a little kind of cautionary flag up.
    I do want to say that we are doing a lot of stuff in rail. 
We are doing a lot of stuff with respect to, for example, 
chemical and biological detection equipment, integrated systems 
with video and with detectors which we now have in Boston and 
in New York and in Washington. We have Biowatch centers in 32 
cities in the country. We are accelerating development of that. 
That is focused on a very significant threat in the subway 
system, which is the threat not just of a bomb which could 
kill--it would be bad enough to kill a few dozen people, but 
imagine a biological agent put in a subway system that killed 
thousands of people and made the system unusable for a period 
of months.
    So I want to make sure that we are focused on putting our 
considerable resources that we are putting into transportation 
security, again, in a disciplined and prioritized way.
    Finally, let me say, in this year's budget, we basically 
combined a number of programs, and actually our targeted 
infrastructure protection program requested $600 million, which 
would put in the area of rail and other similar things more 
money than would have been available to all of those things 
individually based on the prior year's spending.
    So we have actually put considerable additional money into 
this, and I want to remind the public that in addition, we have 
large general grant programs for homeland security which are 
fully available for transportation. So we should not view 
transportation as limited to a few hundred million. We have 
literally made billions of dollars available to States and 
localities in various programs over the years that have been 
used to spend on enhancing transportation facilities.
    Senator Carper. My time has expired. Let me just say, if 
the folks in New York or somewhere else do not know how to 
spend some of these dollars, I am sure there are folks in other 
States, including my own, and probably some other States that 
are represented here on this panel, that could figure out how 
to do it.
    I would urge you to consider, your Department to consider 
putting out guidelines to help New York or anybody who is 
having a hard time figuring it out.
    Last, we do not have time to do this here. If I did, I 
would ask you just to share with us, what do they do in London? 
What systems do they have on the ground in place that enable 
them to track down so quickly the perpetrators of the crimes 
that were committed and killed all those people?
    Chairman Collins. Cameras.
    Senator Carper. That is what I hear. But we do not have 
time for that today, but it was amazing what they accomplished 
in a very short period of time in figuring out who did this, 
who perpetrated those crimes, and tracking down the 
perpetrators, identifying them. Thank you.
    Chairman Collins. Thank you, Senator.
    Mr. Secretary, we do have a vote on. You are in luck 
because that means this hearing has to conclude.
    I want to make two very quick points in closing. The first 
is that as I review your plan, I see that you intend to make 
some truly fundamental changes to the Department without 
requesting legislation. Your list of legislative changes is 
very narrow, and I think you are pushing the boundaries on 
that. I hope you will work with the Committee so that we can 
draft a more comprehensive reauthorization bill. I think many 
of the changes you are proposing really should be done by law 
and not just administratively. So that is an issue we will be 
pursuing with you.
    Second, I cannot let the record go uncorrected in response 
to the comments from the Senator from New Jersey about the 
Collins-Lieberman Homeland Security Grant Amendment, which was 
adopted by the Senate overwhelmingly yesterday, with more than 
70 votes, 71 as a matter of fact.
    I want to make two points. First, the Collins-Lieberman 
Amendment doubles the amount of money that would be allocated 
based on a risk assessment as compared to current law. In fact, 
the latest Congressional Research Service report, which I will 
put into the record, says that nearly 80 percent of the funding 
would be allocated based on a risk assessment.\1\
---------------------------------------------------------------------------
    \1\ The CRS report dated July 12, 2005, appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    Second--and this is a very important point--the Secretary 
of Homeland Security will have unprecedented authority to 
allocate funds. We asked the Congressional Research Service to 
see if they could find any other grant program in excess of a 
billion dollars where a Secretary was given such unfettered 
discretion, and they could not. Colleagues on both sides of the 
aisle have expressed concerns that we in the Congress are 
giving you too much authority to allocate these funds as you 
see fit.
    So in fact, we have moved a long ways toward the position 
that you have advocated, despite the concerns of the Senator 
from New Jersey. I hope your future public statements on this 
will reflect these key points as well.
    Senator Lieberman. Madam Chairman.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. May I just say that in this, as in so 
much else, the Chairman speaks for the Ranking Member. 
[Laughter.]
    I do want to say it struck me, as we were all focused on 
London, that it bears mentioning that from all that we know 
now, the plot to attack rail and transit in London was put 
together in Leeds, a smaller town, and it follows the pattern 
of the September 11 attacks here, and it shows the important 
role of local law enforcers in stopping such plots, not to 
mention the fact that agroterrorism, obviously, would be 
carried out in rural areas as well. So we are together on this. 
Thank you very much.
    Chairman Collins. Thank you. The hearing record will remain 
open for 15 days. I am sure many of the Members will have 
additional questions for the record as well as other materials 
to submit.
    Thank you very much for appearing today. We look forward to 
working closely with you.
    Chairman Collins. This hearing is now adjourned.
    [Whereupon, at 3:25 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 23159.001

[GRAPHIC] [TIFF OMITTED] 23159.002

[GRAPHIC] [TIFF OMITTED] 23159.003

[GRAPHIC] [TIFF OMITTED] 23159.004

[GRAPHIC] [TIFF OMITTED] 23159.005

[GRAPHIC] [TIFF OMITTED] 23159.006

[GRAPHIC] [TIFF OMITTED] 23159.007

[GRAPHIC] [TIFF OMITTED] 23159.008

[GRAPHIC] [TIFF OMITTED] 23159.009

[GRAPHIC] [TIFF OMITTED] 23159.010

[GRAPHIC] [TIFF OMITTED] 23159.011

[GRAPHIC] [TIFF OMITTED] 23159.012

[GRAPHIC] [TIFF OMITTED] 23159.013

[GRAPHIC] [TIFF OMITTED] 23159.014

[GRAPHIC] [TIFF OMITTED] 23159.015

[GRAPHIC] [TIFF OMITTED] 23159.016

[GRAPHIC] [TIFF OMITTED] 23159.017

[GRAPHIC] [TIFF OMITTED] 23159.018

[GRAPHIC] [TIFF OMITTED] 23159.019

[GRAPHIC] [TIFF OMITTED] 23159.020

[GRAPHIC] [TIFF OMITTED] 23159.021

[GRAPHIC] [TIFF OMITTED] 23159.022

[GRAPHIC] [TIFF OMITTED] 23159.023

[GRAPHIC] [TIFF OMITTED] 23159.024

[GRAPHIC] [TIFF OMITTED] 23159.025

[GRAPHIC] [TIFF OMITTED] 23159.026

[GRAPHIC] [TIFF OMITTED] 23159.027

[GRAPHIC] [TIFF OMITTED] 23159.028

[GRAPHIC] [TIFF OMITTED] 23159.029

[GRAPHIC] [TIFF OMITTED] 23159.030

[GRAPHIC] [TIFF OMITTED] 23159.031

[GRAPHIC] [TIFF OMITTED] 23159.032

[GRAPHIC] [TIFF OMITTED] 23159.033

[GRAPHIC] [TIFF OMITTED] 23159.034

[GRAPHIC] [TIFF OMITTED] 23159.035

[GRAPHIC] [TIFF OMITTED] 23159.036

[GRAPHIC] [TIFF OMITTED] 23159.037

[GRAPHIC] [TIFF OMITTED] 23159.038

[GRAPHIC] [TIFF OMITTED] 23159.039

[GRAPHIC] [TIFF OMITTED] 23159.040

[GRAPHIC] [TIFF OMITTED] 23159.041

                                 <all>

</pre></body></html>
